App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-55719
D.C. No. 2:16-cv-05864-CAS-JC
DAVINCI AIRCRAFT, INC.,
Plaintiff-Appellant,
v.
UNITED STATES OF AMERICA; MICHAEL
CHRISTMAS, individual and official capacity;
RODNEY LEWIS, individual and official capacity;
JOEL S. RUSSELL, individual and official capacity;
DOES, 1 through 10, inclusive,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Christina A. Snyder, District Judge, Presiding
Argued and Submitted November 13, 2018
Pasadena, California
Filed June 12, 2019

App. 2
Before: Richard A. Paez, Barrington D. Parker,1 and
Richard R. Clifton, Circuit Judges.
Opinion by Judge Paez
SUMMARY2
Federal Tort Claims Act / Bivens
The panel affirmed the district court’s dismissal
of all of the claims of DaVinci Aircraft, Inc., alleging
conversion and other common law torts against the
United States and several U.S. Air Force employees;
and remanded so that the district court may transfer
the action to the Court of Federal Claims, if so
requested.
U.S. Air Force agents seized ten military Global
Positioning Systems antennas from DaVinci. DaVinci
sought damages under the Federal Tort Claims Act
(“FTCA”) and Bivens v. Six Unknown Named Agents
of Federal Bureau of Narcotics, 403 U.S. 388 (1971).
In support of its abuse of process and conversion
claims, DaVinci alleged that the United States and its
agents conspired to fraudulently and wrongfully

The Honorable Barrington D. Parker, United States Circuit
Judge for the U.S. Court of Appeals for the Second Circuit,
sitting by designation.
2 This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the
reader.
1

App. 3
coerce DaVinci to surrender the antennas to the Air
Force without due process or just compensation.
The panel held that DaVinci’s abuse of process
claim was barred by section 2680(c) of the FTCA,
which bars any “claim arising in respect of . . . the
detention of any goods, merchandise, or other
property by any officer of customs or excise or any
other law enforcement officer.” 26 U.S.C. § 2680(c).
The panel held that the exception applied even
though the antennas were permanently, rather than
temporarily, detained; and applied whether or not the
property was seized as a part of a criminal
investigation. The panel further held that because the
antennas were not seized “solely” for the purpose of
forfeiture, paragraphs (1)–(4) to section 2680(c)
through the Civil Asset Forfeiture Reform Act of 2000
did not rewaive sovereign immunity to allow
DaVinci’s abuse of process claim. The panel held that
the same logic applied to prohibit DaVinci’s
conversion claim because it was based on the
allegedly illegal seizure of goods.
The panel held that at the very least, DaVinci
could seek reimbursement for the price it paid for the
antennas at the Court of Federal Claims. The panel
further held that DaVinci could proceed in the Court
of Federal Claims under the Tucker Act through a
takings claim under the Fifth Amendment.
DaVinci sued individual defendants in their
individual capacities. The panel held that because
DaVinci voluntarily dismissed the case against the
three named individuals and never amended the
complaint to include any others, DaVinci’s Bivens
claims against the individual defendants were not

App. 4
part of this appeal and did not exist. The panel further
held that the only remaining defendant remaining
was the United States, and the district court properly
dismissed the Bivens claims against the United
States for lack of subject matter jurisdiction.

COUNSEL
Abraham Richard Wagner (argued), Law Offices of
Abraham Wagner, Los Angeles, California; David M.
Baum, Baum Law Corporation, Los Angeles,
California; for Plaintiff-Appellant.
David Pinchas (argued), Assistant United States
Attorney; Dorothy A. Schouten, Chief, Civil Division;
Nicola T. Hanna, United States Attorney; United
States Attorney’s Office, Los Angeles, California; for
Defendant-Appellee.

OPINION
PAEZ, Circuit Judge:
In 2014, United States Air Force agents seized ten
military Global Positioning System (“GPS”) antennas
from DaVinci Aircraft, Inc. (“DaVinci”), allegedly
under the guise of the Espionage Act, 18 U.S.C. § 793.
DaVinci responded by filing this action alleging
conversion and other common law tort claims against
the United States and several U.S. Air Force
employees. DaVinci seeks damages under the Federal
Tort Claims Act (“FTCA”), ch. 753, Title IV, 60 Stat.

App. 5
842 (codified as amended in scattered sections of 28
U.S.C.), and Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics, 403 U.S. 388 (1971).
The FTCA allows parties to pursue certain claims
against the United States in federal court for injury
arising out of the negligent or wrongful conduct of any
federal employee acting within the scope of the
employee’s employment. See 28 U.S.C. §§ 1346(b)(1),
2674, 2679(b)(1). This waiver of sovereign immunity
is significant but limited with certain exceptions. See
28 U.S.C. § 2680. Separately, the Tucker Act grants
exclusive jurisdiction to the Court of Federal Claims
for actions “sounding in contract” against the United
States. Snyder & Associates Acquisitions LLC v.
United States (Snyder), 859 F.3d 1152, 1156 n.2 (9th
Cir.), opinion amended on reh’g, 868 F.3d 1048 (9th
Cir. 2017) (citing 28 U.S.C. § 1491(a)(1)). In this case,
we must delineate between claims that must be filed
in the district court and those that must be filed in the
Court of Federal Claims.
The district court granted the government’s
motion to dismiss all of DaVinci’s claims against the
United States for lack of subject matter jurisdiction.
We have appellate jurisdiction pursuant to 28 U.S.C.
§ 1291, and we affirm. Although we affirm, we also
remand so that the district court may transfer this
action to the Court of Federal Claims, provided
DaVinci so requests. See McGuire v. United States,
550 F.3d 903, 914 (9th Cir. 2008).
I.
A.

App. 6
DaVinci is a California-based corporation that
purchases and sells new and used parts in the
aviation and aerospace industries. DaVinci’s
problems arose out of its acquisition and the U.S. Air
Force’s subsequent confiscation of ten GPS antennas
for the AGM-158 Joint Air-to-Surface Standoff
Missile (“the Antennas”).
Ball
Aerospace
&
Technologies,
Inc.
manufactured the Antennas under a subcontract from
Lockheed Martin, a U.S. Air Force prime contractor.
Under the subcontract, the Antennas were considered
unclassified hardware and therefore not subject to the
security requirements of the Department of Defense
or U.S. Air Force for classified data and hardware.
They did not require demilitarization and were
authorized by the U.S. Air Force for public sale,
excluding export, around March 2013. Avatar
Unlimited purchased the Antennas from Lockheed
Martin as part of a bulk sale of surplus parts, and
then resold them to BPB Surplus, who then sold them
to DaVinci for $3,000.
In September 2013, four agents from the U.S. Air
Force Office of Special Investigations visited
DaVinci’s office to inspect and discuss the Antennas.
After the inspection, Special Agent Laura Voyatzis
demanded that DaVinci surrender the equipment.
DaVinci refused to surrender the Antennas without
the agents providing authority for their demands.
When asked for the selling price, DaVinci quoted
$1.25 million for the Antennas, after which the
Special Agents left without further action.
Between April and June 2014, DaVinci
corresponded with agents at Eglin Air Force Base

App. 7
over the Antennas. Contracting Officer Rodney Lewis
initially offered $7,359 for the Antennas, but DaVinci
declined and countered with a discounted price of
$750,000 and later $600,000. DaVinci and the Air
Force employees never agreed upon a price.
In September 2014, Special Agent Joel S. Russell
and two Air Force Officers arrived at DaVinci’s office
and demanded that DaVinci surrender the Antennas
under compulsion of law. Russell produced a letter
dated a week earlier and signed by both Lewis and
Michael Christmas, Special Agent in Charge of the
Department of the Air Force, Office of Special
Investigations. The letter stated that the “delivery of
the said items by [DaVinci’s owner] and DaVinci
Aircraft is made under compulsion of law pursuant to
18 USC 793(d)[, the Espionage Act,] and is made
without prejudice to any claims by [DaVinci’s owner]
and/or DaVinci Aircraft for their fair market value.”
In response to Russell’s demands and the threat
of criminal prosecution for failure to comply, DaVinci
surrendered the Antennas. Russell provided a signed
acknowledgment of “Receipt For Items Taken Under
Compulsion” to DaVinci. That same day, DaVinci
delivered to Eglin Air Force Base an invoice for the
Antennas in the amount of $1.25 million.
B.
After
process,3

exhausting the FTCA administrative
DaVinci filed a complaint in the district

Although the government never formally denied DaVinci’s
administrative claim for damages, it does not dispute that
DaVinci pursued and exhausted its administrative remedies.
3

App. 8
court against the United States, Christmas, Lewis,
and 10 unnamed individual defendants in their
official capacities. The United States filed a motion to
dismiss under Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6). The United States argued that
the district court lacked jurisdiction over DaVinci’s
tort claims because the confiscation fell into an
exception of the FTCA’s waiver of its sovereign
immunity. In support of its assertion, the government
submitted
a
declaration
from
Martin
D.
Hemmingsen, Program Element Monitor for Air
Force Special Programs, attesting that in July 2014,
the Antennas were classified as “SECRET” and
“SECRET/SPECIAL ACCESS REQUIRED” level in
accordance with Executive Order 13,526.4 The court
concluded that it lacked jurisdiction over DaVinci’s
tort claims against the United States and that
DaVinci failed to state a Bivens claim against the
After filing a Standard Form 95 with the Claims Division of the
Office of Staff Judge Advocate, Department of the Army, DaVinci
waited over six months without receiving a response before filing
his complaint. See 28 U.S.C. § 2675(a) (“failure of an agency to
make final disposition of a claim within six months after it is
filed” is “deemed a final denial of the claim for purposes of [the
FTCA]”).
The Executive Order “prescribes a uniform system for
classifying, safeguarding, and declassifying national security
information.” Exec. Order No. 13,526, 75 Fed. Reg. 707 (Dec. 29,
2009). “Information shall not be considered for classification
unless its unauthorized disclosure could reasonably be expected
to cause identifiable or describable damage to the national
security” and it pertains to an enumerated category of
information related to military and foreign intelligence matters.
Id. at § 1.4.
4

App. 9
individual defendants, and dismissed all claims
without prejudice.
DaVinci filed a First Amended Complaint against
the United States, Christmas, Lewis, Russell, and 10
unnamed defendants. This time, all of the individual
defendants were sued in their individual capacities.
DaVinci asserted six causes of action against all
defendants: (1) conversion, (2) seizure of property in
violation of the Fourth Amendment, (3) deprivation of
property without due process in violation of the Fifth
Amendment, (4) conspiracy related to abuse of
process,5
(5)
fraud,
and
(6)
negligent
misrepresentation. The United States responded with
another motion to dismiss under Rules 12(b)(1) and
12(b)(6).
The district court again granted the motion to
dismiss all claims against the United States. The
district court concluded that it lacked jurisdiction
over DaVinci’s FTCA claims of fraud, negligent
misrepresentation, and conspiracy to commit fraud or
misrepresentation because 28 U.S.C. § 2680(h)
provides an absolute bar to such claims.6 The district
DaVinci initially labeled this claim as a conspiracy related to
abuse of process claim, but the district court treated this as an
abuse of process claim, and we do so as well.
5

Section 2680(h) provides that plaintiffs may not assert any
claim “arising out of assault, battery, false imprisonment, false
arrest, malicious prosecution, abuse of process, libel, slander,
misrepresentation, deceit, or interference with contract rights”
by federal employees. DaVinci has not appealed the district
court’s order dismissing its claims of fraud, negligent
misrepresentation, or conspiracy to commit fraud or
misrepresentation. Section 2680(h) does not bar DaVinci’s abuse
6

App. 10
court also held that it lacked jurisdiction over
DaVinci’s abuse of process and conversion claims
because of the FTCA’s “detention of goods” exception
under 28 U.S.C. § 2680(c). Relying on the 2014
Christmas letter and 2016 Hemmingsen declaration,
the district court noted that it could not review the Air
Force’s decision to classify the Antennas as relating to
the national defense because such classification was
a discretionary decision, triggering the “discretionary
function” bar under 28 U.S.C. § 2680(a). Lastly, the
district court held that Bivens did not provide a cause
of action against the United States, and therefore
dismissed DaVinci’s two constitutional claims against
the United States.
DaVinci timely appealed. The only parties on
appeal are DaVinci and the United States because
after the district court dismissed all claims against
the United States, DaVinci dismissed the action
without prejudice against Christmas, Russell and
Lewis.
II.
We review de novo a district court’s decision to
grant a motion to dismiss for lack of subject matter
jurisdiction. Snyder, 859 F.3d at 1156. When
reviewing a dismissal pursuant to Rule 12(b)(1) and
12(b)(6), “we accept as true all facts alleged in the
complaint and construe them in the light most
of process claim because the provision contains an exception for
certain claims arising out of the actions of an “investigative or
law enforcement officer,” which includes the U.S. Air Force
agents in this case. 28 U.S.C. § 2680(h).

App. 11
favorable to plaintiff[], the non-moving party.” Id. at
1156–57 (citing Leite v. Crane Co., 749 F.3d 1117,
1121 (9th Cir. 2014)). “Dismissal is improper unless
‘it appears beyond doubt that the plaintiff can prove
no set of facts in support of his claim which would
entitle him to relief.’” Love v. United States, 915 F.2d
1242, 1245 (9th Cir. 1989) (quoting Gibson v. United
States, 781 F.2d 1334, 1337 (9th Cir. 1986)); see also
Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009) (holding
that plaintiff must plead factual allegations that
“plausibly give rise to an entitlement to relief”).
III.
DaVinci argues that the district court erred by
dismissing four of its claims: abuse of process,
conversion, and two Bivens claims. Although the
government also moved to dismiss based on failure to
state a claim, our focus is on the district court’s
determination that it lacked subject matter
jurisdiction over DaVinci’s claims. We briefly review
the relevant aspects of the FTCA and then address
each of DaVinci’s claims in turn.
A. The FTCA and Its Exceptions
Enacted in 1946, the FTCA provides that the
United States shall be liable, to the same extent as a
private party, “for injury or loss of property, or
personal injury or death caused by the negligent or
wrongful act or omission of any employee of the
Government while acting within the scope of his office
or employment.” 28 U.S.C. § 1346(b)(1); see also 28
U.S.C. § 2674 (“The United States shall be liable,
respecting the provisions of this title relating to tort

App. 12
claims, in the same manner and to the same extent as
a private individual under like circumstances . . .”). In
doing so, the FTCA waives the United States’
sovereign immunity for tort claims against the federal
government in cases where a private individual would
have been liable under “the law of the place where the
act or omission occurred.” 28 U.S.C. § 1346(b)(1).
That waiver, however, is limited to only “permit[]
certain types of actions against the United States.”
Morris v. United States, 521 F.2d 872, 874 (9th Cir.
1975). Specifically, 28 U.S.C. § 2680 “provides for
several exceptions that ‘severely limit[]’ the FTCA’s
waiver of sovereign immunity.” Snyder, 859 F.3d at
1157 (quoting Morris, 521 F.2d at 874). If a plaintiff’s
tort claim falls within one of the exceptions, the
district court lacks subject matter jurisdiction. Id. To
determine whether section 2680 bars a proposed
claim, we “look[] beyond the labels,” Thomas-Lazear
v. FBI, 851 F.2d 1202, 1207 (9th Cir. 1988), and
evaluate the alleged “conduct on which the claim is
based,” Mt. Homes, Inc. v. United States, 912 F.2d
352, 356 (9th Cir. 1990). For instance, in ThomasLazear, we noted that “the claim for negligent
infliction of emotional distress is nothing more than a
restatement of the [originally barred] slander claim”
because “the Government’s actions that constitute a
claim for slander are essential to [the plaintiff]’s claim
for negligent infliction of emotional distress.” 851
F.2d at 1207. Hence, it was also barred by section
2680(h) as “[t]here is no other government conduct
upon which [the claim] can rest.” Id. (quoting Metz v.
United States, 788 F.2d 1528, 1535 (11th Cir. 1986));
see also Alexander v. United States, 787 F.2d 1349,

App. 13
1350–51 (9th Cir. 1986) (holding that negligence
claim was actually one of misrepresentation); Leaf v.
United States, 661 F.2d 740, 742 (9th Cir. 1981)
(same). Thus, if the governmental conduct underlying
a claim falls within an exception outlined in section
2680, the claim is barred, no matter how the tort is
characterized. See Mt. Homes, 912 F.2d at 356.
B.
In support of its abuse of process and conversion
claims, DaVinci alleged that the United States and its
agents conspired to fraudulently and wrongfully
coerce DaVinci to surrender the Antennas to the Air
Force without due process or just compensation.
DaVinci challenges, in essence, the government’s
conduct as it relates to the seizure of the Antennas.
i. Abuse of Process Claim
To support a cause of action for abuse of process,
DaVinci “must plead two essential elements: that the
defendant (1) entertained an ulterior motive in using
the process and (2) committed a willful act in a
wrongful manner.” Snyder, 859 F.3d at 1161 (quoting
Coleman v. Gulf Ins. Grp., 718 P.2d 77, 81 (Cal.
1986)). Because DaVinci’s claim is premised on the
seizure of the Antennas, we must first decide whether
28 U.S.C. § 2680(c)’s detention of goods exception
precludes jurisdiction. Compare Kosak v. United
States, 465 U.S. 848, 859–61 (1984) (holding that
plaintiff’s negligence claim fell under the detention of
goods exception because he was challenging the
Customs officials’ negligence in the handling of his
seized artwork), with Cervantes v. United States, 330

App. 14
F.3d 1186, 1189–90 (9th Cir. 2003) (holding that
plaintiff’s negligence claim did not fall under the
detention of goods exception because the alleged
negligence had nothing to do with the detention of the
car at issue). We hold that DaVinci’s abuse of process
claim is barred by section 2680(c).7
The FTCA bars “[a]ny claim arising in respect of .
. . the detention of any goods, merchandise, or other
property by any officer of customs or excise or any
other law enforcement officer.” 28 U.S.C. § 2680(c).
The Supreme Court has interpreted the statutory
language of section 2680(c) to encompass “all injuries
associated in any way with the ‘detention’ of goods,”
including claims for negligence. Kosak, 465 U.S. at
854 (emphasis added). More recently, the Supreme
Court resolved a circuit split in holding that the
detention of goods exception applies to the detention
of goods by “all law enforcement officers,” not just
officers enforcing customs or excise laws. Ali v. Fed.
Bureau of Prisons, 552 U.S. 214, 215–16 (2008)
(emphasis added). Even prior to Ali, we had held that
section 2680(c)’s detention of goods exception extends
beyond customs enforcement to cover Bureau of
Prisons officers. See Bramwell v. U.S. Bureau of
Prisons, 348 F.3d 804, 807 (9th Cir. 2003).

The district court also noted that it could not consider a
challenge to the Antennas’ classification due to the discretionary
function exception under 28 U.S.C. § 2680(a). Because the
detention of goods exception precludes DaVinci’s claim, we do
not address the applicability of the discretionary function
exception. United States v. Lockheed L-188 Aircraft, 656 F.2d
390, 397 (9th Cir. 1979).
7

App. 15
DaVinci attempts to distinguish its situation by
emphasizing that the Antennas were permanently
taken and without any allegation of criminal conduct,
unlike those in Kosak or Foster v. United States, 522
F.3d 1071 (9th Cir. 2008), where the property was
temporarily
detained
pending
a
criminal
investigation. We recognize that other courts have
confined section 2680(c) to bar only those suits arising
out of the temporary custody or withholding of goods.8
Our court has concluded otherwise. In our view, the
statute has “effectively bar[red] any remedy for
intentional torts with respect to seizures,” notably
treating “seizures” as covered by the detention
exception in section 2680(c). Gasho v. United States,
39 F.3d 1420, 1433 (9th Cir. 1994).
As the case law stands, we have not made any
distinction between a permanent or temporary
detention. See id.; see also Ali, 552 U.S. at 216
(affirming that the detention of goods exception
barred petitioner’s claim against prison officials for
losing some of his possessions during a transfer);
United States v. $149,345 U.S. Currency, 747 F.2d
1278, 1283 (9th Cir. 1984) (holding that section
2680(c) precludes FTCA counterclaim based on
permanent seizure of money as drug sales proceeds).
The exception also applies whether or not the
See Kurinsky v. United States, 33 F.3d 594, 597 (6th Cir. 1994),
overruled on other grounds by Ali, 522 U.S. 214; Chapa v. U.S.
Dep’t of Justice, 339 F.3d 388, 390–91 (5th Cir. 2003); Hallock v.
United States, 253 F. Supp. 2d 361, 366 (N.D.N.Y. 2003); but see
Parrott v. United States, 536 F.3d 629 (7th Cir. 2008) (noting
“some circuits have held that officers’ actions of ‘seizing’ property
falls within the scope of the exception”).
8

App. 16
property was seized as part of a criminal
investigation. See, e.g., Ali, 552 U.S. at 216 (holding
exception applied where goods were damaged during
prison transfer); Bramwell, 348 F.3d at 805–06
(applying section 2680(c) to bar petitioner’s claim for
damages where his eyeglasses were accidentally
damaged while being washed in the prison laundry).
Our reading of section 2680(c) “effectively bars any
remedy for intentional torts with respect to seizures
by law enforcement officials.9 Gasho, 39 F.3d at 1433.

Admittedly, our broad reading in Gasho conflicts with our
repeated warnings against reading exemptions so broadly that
the “FTCA’s waiver of sovereign immunity” ends up being
“wholly subsumed in the [] exception.” Snyder, 859 F.3d at 1159
(holding that section 2680(c)’s exception for tax-related activities
is “broad, but it is not unlimited”); see also Wright v. United
States, 719 F.2d 1032, 1036 (9th Cir. 1983) (noting the court
“reads no exemptions into the FTCA beyond those provided”). In
Kosak, the Supreme Court emphasized “that the exceptions to
the Tort Claims Act should not be read in a way that would
‘nullif[y them] through judicial interpretation,’” because “unduly
generous interpretations of the exceptions run the risk of
defeating the central purpose of the statute. 465 U.S. at 853 n.9
(quoting United States v. Yellow Cab Co., 340 U.S. 543, 548 n.5
(1983)).
9

During oral argument, DaVinci’s counsel asserted, for the
first time, that the government no longer has custody of the
Antennas because they were used during an attack in Syria and,
hence, the detention of goods exception does not apply. Oral
argument at 29:37-30:30, DaVinci Aircraft, Inc. v. United States,
No.
17-55719
(9th
Cir.
Nov.
13,
2018),
https://www.ca9.uscourts.gov/media/view_video.php?pk_vid=00
00014566. DaVinci did not mention the lack of custody in its
briefing and has conceded that it cannot point to any evidence in
the record to support the contention. Id. We therefore do not
address the applicability of section 2680(c) to such hypothetical

App. 17
Perhaps acknowledging the breadth of the
exception, Congress added paragraphs (1)-(4) to
section 2680(c) through the Civil Asset Forfeiture
Reform Act of 2000, Pub. L. No. 106-185, § 3, 114 Stat.
202, 211, which created an exception to the detention
of goods exception for property “seized for the purpose
of forfeiture.” 28 U.S.C. § 2680(c)(1). The district court
correctly held that the seizure of the Antennas does
not fall within the forfeiture exception because there
is no evidence that the government seized them
“solely for the purpose of forfeiture.” Foster, 522 F.3d
at 1075. In fact, no forfeiture proceedings have been
initiated against DaVinci. Because the Antennas
were not seized “solely” for the purpose of forfeiture,
section 2680(c)(1)–(4) does not rewaive sovereign
immunity to allow DaVinci’s abuse of process claim.
ii. Conversion Claim
The same logic extends to prohibit DaVinci’s
conversion claim because it is based on the allegedly
illegal seizure of goods. See Gasho, 39 F.3d at 1433
(holding that section 2680(c) barred tort claim based
on seizure and detention of plaintiffs’ aircraft);
Lockheed L-188 Aircraft, 656 F.2d at 397 (same).
DaVinci relies on a line of our cases to argue that
the district court had jurisdiction to hear his
conversion claim because it “sounds in tort” and could
not be heard in the Court of Federal Claims. These
cases did recognize that where a contract between the
plaintiff and federal government was not the sole
basis for liability and a claim was “essentially one
circumstances and leave that issue for another day.

App. 18
sounding in tort,” the district court had jurisdiction to
hear the plaintiff’s FTCA claim. Fort Vancouver
Plywood Co. v. United States, 747 F.2d 547, 550 (9th
Cir. 1984) (quoting Woodbury v. United States, 313
F.2d 291, 294–96 (9th Cir. 1963)); see also Love, 915
F.2d at 1246–47 (holding that district court has
jurisdiction under the FTCA to consider conversion
claim under Montana law). DaVinci’s reliance on
these cases is misplaced, however, because they
predate the expansion of the detention of goods
exception by the Supreme Court to “sweep within the
exception all injuries associated in any way with the
‘detention’ of goods,” Kosak, 465 U.S. at 854, by “all
law enforcement officials,” Ali, 552 U.S. at 216.
Section 2680(c)’s very limited exception within the
exception for goods seized “solely” for forfeiture
purposes, Foster, 522 F.3d at 1079, also does not apply
here.
DaVinci correctly asserts that the Court of
Federal Claims would have no jurisdiction over its
conversion claim because it is a pure tort claim. See
Snyder, 859 F.3d at 1156 n.2; see also Hall v. United
States, 19 Cl. Ct. 558, 559 (1990) (noting that “the
parties agreed that plaintiffs would not pursue their
conversion claim as [the Court of Federal Claims]
does not have jurisdiction over claims sounding in
tort.”), aff’d, 918 F.2d 187 (Fed. Cir. 1990). As
discussed below, however, this does not mean that
DaVinci is foreclosed from all relief.

App. 19
C. The Tucker Act and Court of Federal
Claims10
As the Supreme Court discussed in Kosak, one
rationale for an expansive interpretation of the FTCA
exceptions is that Congress did not intend the FTCA
to provide recovery where “adequate remedies were
already available.” 465 U.S. at 858. The Tucker Act
has long provided a venue for claims like the one
DaVinci brings here. See 28 U.S.C. § 1491(a)(1)
(providing for jurisdiction in the Court of Federal
Claims for “any claim against the United States
founded either upon the Constitution, or any Act of
Congress or any regulation of an executive
department, or upon any express or implied contract
with the United States, or for liquidated or
unliquidated damages in cases not sounding in tort.”
(emphasis added)). In fact, the district court noted
that claims like DaVinci’s—claims against the United
States for compensation or the return of materials
seized pursuant to 18 U.S.C. § 793(d)—have been
brought in the Court of Federal Claims as breaches of
implied or express contracts. Critically, the Supreme
Court has explicitly held that the detention of goods
exception from 28 U.S.C. § 2680(c) does not apply to
the Tucker Act. See Hatzlachh Supply Co. v. United
States, 444 U.S. 460, 466 (1980).
The Court of Federal Claims’ opinion in Ast/Servo
Systems, Inc. v. United States contained strikingly
Prior to 1992, the U.S. Court of Federal Claims was known as
the U.S. Court of Claims or Claims Court. See Federal Courts
Administration Act of 1992, Pub. L. No. 102-572, § 902(a)(1), 106
Stat. 4506, 4517.
10

App. 20
similar facts to DaVinci’s situation. 449 F.2d, 789, 789
(Ct. Cl. 1971). In Ast/Servo Systems, Inc., the Air
Force mistakenly sold through a public sale surplus
governmental material, specifically guidance sets,
which the plaintiff bought from the original
purchasers for $65-300 apiece and then offered for
sale at a 10-50 times markup. Id. at 789. The Air
Force subsequently informed the plaintiff that the
guidance sets “relat[ed] to the national defense”
under the Espionage Act, and demanded immediate
return of the equipment. Id. at 789–90. The plaintiff
complied and then brought suit for “just
compensation” in the amount of the sales price it had
marked up. Id. at 790. Applying principles of contract
law, the court held that the plaintiff could not recover
“just compensation” because the original Air Force
sale was a mistake, thereby voiding the original
contract, id. at 791–92, but that the plaintiff could
seek actual out-of-pocket costs, id. at 792. See also
Int’l. Air Response v. United States, 75 Fed. Cl. 604,
614 (2007) (“[E]ven if the Espionage Act did apply,
plaintiff would be entitled to compensation for its
‘actual expenditures.’” (quoting Ast/Servo Systems,
Inc., 449 F.2d at 790)). Thus, at the very least,
DaVinci could seek reimbursement for the price it
paid for the Antennas at the Court of Federal
Claims.11

If DaVinci wishes to contest the Antennas’ classification, it
may still do so in the Court of Federal Claims. See, e.g., Int’l Air
Response, 75 Fed. Cl. at 614 (noting that not all information
about wartime activities necessarily relates to national defense,
and holding that the government failed to show that the
Espionage Act should be applied to the historical military
11

App. 21
D. Bivens Claims
A Bivens suit may be brought against a
government official in her individual capacity, but not
in her official capacity because such a suit “would
merely be another way of pleading an action against
the United States, which would be barred by the
doctrine of sovereign immunity.” Id. at 1173.
“Sovereign immunity is jurisdictional in nature,” so
there is no subject matter jurisdiction unless
sovereign immunity has been waived. FDIC v. Meyer,
510 U.S. 471, 475 (1994).
DaVinci sued Christmas, Lewis, Russell and 10
unnamed defendants in their individual capacities.
On appeal, DaVinci argues that the district court
erred in dismissing its Bivens claims because the
named individual officers were included in the
government’s motion to dismiss. This argument,
however, is belied by the record. The government’s
motion to dismiss was filed on behalf of only the
United States.12 More importantly, DaVinci concedes

transport airplanes that were confiscated); Dubin v. United
States (Dubin I), 289 F.2d 651, 655 (Ct. Cl. 1961) (holding that
“[i]f there is a genuine controversy as to whether the articles
here in question related to the national defense, . . . the case will
have to go to trial”); Dubin v. United States (Dubin II), 363 F.2d
938, 942 (Ct. Cl. 1966) (holding, based on findings from trial, that
there was “no room for doubt that [the repossessed equipment]
was related to the national defense”).
Notably, the United States substituted as a defendant in the
district court in the place of Lewis, Russell and Christmas with
respect to the common law tort causes of action because they
were deemed to be acting within the course and scope of their
employment with the United States. See 28 U.S.C. § 2679(d)(1).
12

App. 22
that it dismissed the case without prejudice against
Christmas, Russell and Lewis due to the “practical
impossibility of personal service.” DaVinci also
asserts that four other individuals,13 originally
identified as John Does, remain parties to the case on
appeal, but DaVinci never attempted to amend its
complaint to include those individuals nor did
DaVinci actually serve them with a summons and
complaint.
In order for the district court to exercise personal
jurisdiction over a defendant sued in her individual
capacity, the defendant must be “properly served” in
her individual capacity. Daly-Murphy v. Winston, 837
F.2d 348, 355 (9th Cir. 1987). “We require ‘substantial
compliance with [Federal Rule of Civil Procedure] 4.’”
Id. (quoting Jackson v. Hayakawa, 682 F.2d 1344,
1347 (9th Cir. 1982)). Because DaVinci voluntarily
dismissed the case against the three named
individuals and never amended the complaint to
include any others, DaVinci’s Bivens claims against
the individual defendants are not part of this appeal
and do not exist. The only defendant remaining is the
United States, and the district court properly
dismissed the Bivens claims against the United
States for lack of subject matter jurisdiction. See

The United States did not, however, file substitutions for any of
the named individual defendants as to DaVinci’s Bivens claims.
The four other individual agents were Special Agent in Charge
Laura Voyatzis, Special Agents Lenora Madison, John Drapalik,
and David Giverno.
13

App. 23
Meyer, 510 U.S. at 475, 486; Daly-Murphy, 837 F.2d
at 356.
IV.
The saga over the seizure of DaVinci’s Antennas
illustrates a tension arising out of our FTCA cases.
On the one hand, we are instructed to construe
statutes waiving the government’s sovereign
immunity strictly in favor of the sovereign. Yet we
must also be wary of reading exemptions so broadly
that the FTCA exceptions swallow up the statute and
leave no recourse for plaintiffs like DaVinci.
Notwithstanding where the Antennas are today,
DaVinci may have a remedy, even if limited, in the
Court of Federal Claims.
Therefore, we affirm the judgment of the district
court and remand this case with instructions that, if
DaVinci so requests, the court shall transfer this
action to the Court of Federal Claims pursuant to 28
U.S.C. § 1631.
AFFIRMED AND REMANDED WITH
INSTRUCTIONS.

App. 24
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. 2:16-cv-05864-CAS-(JCx)
Date: April 25, 2017
Title DAVINCI AIRCRAFT, INC. v. , UNITED
STATES OF AMERICA ET Al.
Present: The Honorable CHRISTINA A. SNYDER
Catherine Jeang: Deputy Clerk
Not Present: Court Reporter / Recorder
Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: (IN CHAMBERS) – UNITED
STATES’ MOTION TO DISMISS
(Filed March 20, 2017, Dkt. 26)
I.

INTRODUCTION

On August 5, 2016, DaVinci Aircraft, Inc.,
(“DaVinci”) filed a complaint against the against the
United States of America as well as Michael
Christmas and Rodney Lewis, two members of the
United States Air Force. Dkt. 1 (“Compl.”). The
Complaint alleges five claims against all defendants,
namely, (1) fraud, (2) negligent misrepresentation, (3)
conspiracy, (4) implied contract, and (5) conversion.
Id. The gravamen of DaVinci’s complaint is that

App. 25
agents of the United States Air Force allegedly
conspired to fraudulently compel DaVinci to
surrender ten “JASSM antennas.”1
On November 28, 2016 the United States filed a
motion to dismiss DaVinci’s claim pursuant to
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6).
Dkt. 12. On January 30, 2017, the Court granted the
United States’ motion and granted DaVinci 21 days in
which to file an amended complaint. Dkt. 18.
On February 21, 2017, DaVinci filed a First
Amended Complaint (“FAC”). Dkt. 19. The FAC adds
a party, defendant Joel Russell, and alleges Bivens
claims against “All Defendants.”
Unlike the
Complaint the FAC does not allege breach of an
implied contract.
On March 20, 2017, the United States filed a
motion to dismiss the FAC. Dkt. 26. (the “Motion” or
“Mot.”)
On March 31, 2017 DaVinci filed an
opposition. Dkt. 31. On April 3, 2017, the United
States filed a reply, in which the United States also
requested that that DaVinci’s untimely opposition be
stricken, Dkt. 32 (“Reply”). On April 4, 2017, DaVinci
filed an opposition to the United States’s request to
strike DaVinci’s opposition to the motion to dismiss.
Dkt. 33 (Opp’n to Striking”).
On April 17, 2017, the Court held oral argument
on the instant motion, after which the Court took the
matter under submission, Dkt. 37. Having carefully
The Government avers that the antennas in question are
“Global Positioning antennas for the AGM-158 Joint Air-toSurface Standoff Missile.” Dkt. 17-1 (“Hemmingsen Decl.)) ¶ 3.
1

App. 26
considered the parties’ argument, the Court rules as
follows:
II. BACKGROUND
The FAC alleges the following facts:
On or about March 2013, DaVinci avers that ten
JASSM antennas were originally manufactured by
Ball Aerospace and subsequently offered for sale to
the public by Lockheed Martin. FAC ¶ 15. The
antennas were allegedly purchased by Avatar
Unlimited “as part of a bulk sale of surplus parts.” id
at 2:14, and subsequently sold again to BPB Surplus.
id at 2:13. DaVinci alleges that, on July 31, 2013, it
purchased the antennas from BPB Surplus for $3,000.
Id. ¶ 24.
Thereafter, DaVinci offered the ten JASSM
antennas for sale for an asking price of $125,000 each.
Id. ¶ 29. On September 17, 2013, Laura Voyatzis, a
special agent with the U.S. Air Force Office of Special
Investigations, accompanied by three other agents,
Lenora Madison, John Drapalik and David
Givermero, visited DaVinci’s office. Id. ¶ 26. Voyatzis
allegedly stated that the agents were there to inspect
and discuss the JASSM antennas. Voyatzis allegedly
demanded that DaVinci surrender the ten JASSM
antennas. Id. ¶ 27. DaVinci refused to surrender the
antennas and the agents asked for the price at which
DaVinci would sell the equipment. Id. ¶ 29. After
learning that the asking price was $125,000 per
antenna, the agents left. Id.
On April 21, 2014 – in response to a price request
from Rodney Lewis, a contracting officer on Egin Air
Force Base – DaVinci offered to sell the antennas for

App. 27
$75,000 each. Id. ¶ 30. Lewis allegedly made a
counteroffer to pay $7,359 for all ten antennas based
on the price DaVinci originally paid. Id. ¶ 32.
DaVinci rejected the offer and insisted on payment of
$750,000. Id. ¶ 33. Lewis allegedly replied “I
encourage you to propose a more reasonable price so
we both can benefit.” Id.
On June 11, 2014, DaVinci allegedly offered to sell
the antennas to Eglin Air Force Base for a total of
$600,000. Id. ¶ 36. DaVinci received no response. Id.
¶ 37.
On September 30, 2014, Joel Russell, a special a
special agent with the U.S. Air Force Office of Special
Investigations, arrived at DaVinci’s office with two
other Air Force officers. Id. ¶ 39. Russell stated that
the Air Force was authorized and intended to take
possession of the antennas. Id. Russell presented
DaVinci with a letter , signed by Michael Christmas,
Special Agent in Charge at the Office of Special
Investigations, “purportedly authorizing the Air
Force to take possession of the JASSM” antennas. Id.
The letter stated:
The undersigned being fully authorized to take
possession of the following items being claimed as
constituting or consisting of “information relating to
the national defense” acknowledges received of ten
(10) JASSM antennae – from Leonardo Parra and
DaVinci Aircraft.
The undersigned further
acknowledges that the delivery of said items by
Leonardo Parra and DaVinci Aircraft is made under
compulsion of law pursuant to 18 USC 793(d) and is
made without prejudice to any claims by Leonardo
Parra and/or DaVinci Aircraft for their fair market

App. 28
value. Id. ¶ 39; Ex. F (“Christmas Letter”). DaVinci
alleges that it surrendered the antennas “pursuant to
the demands and threats made by Special Agent
Russell to provide the JASSM Antennae under
compulsion of law . . . including the threat of criminal
prosecution for failure to comply.” Id. ¶ 40.
DaVinci avers that the Air Force lacked authority
to take possession of the JASSM antennas and
fraudulently represented its authority to induce
surrender of the antennas. Id. ¶ 78. DaVinci asserts
that the defendants knowingly and intentionally
made false and fraudulent statements to DaVinci
regarding its authority and the risk of criminal
prosecution in order to defraud DaVinci. Id. ¶ 73.
According to DaVinci, defendants knowingly
conspired to make the foregoing representations to
induce the surrender of property without due process
of law. Id. ¶ 78.
On March 12, 2015, DaVinci’s counsel allegedly
sent a letter to the Office of Special Investigations at
Eglin Air Force Base, requesting than an attached
“Form 95, Administrative Claim for Damages” be filed
regarding plaintiffs intended tort claims. Id. ¶ 42.
“Ms. Sipp.” A litigator in the Claims Division of the
Office of the Staff Judge Advocate for the Department
of the Army, requested DaVinci file its request,
including the original signed documents, with the
Claims Division of the Office of the Staff Judge
Advocate “to process the claim.” Id. ¶ 43. On August
18, 2015, DaVinci sent the requested documents to
the Claims Division as well as the Office of Special
Investigations at Eglin Air Force Base. Id. ¶ 44. On
August 20, 2015, the Office of the Staff Judge

App. 29
Advocate acknowledged receipt of DaVinci’s claim
against the United States Government. Id. ¶ 45.
The Government has offered evidence that at
least part of the JASSM antennas are classified at the
“SECRET
and
SECRET/SPECIAL
ACCESS
REQUIRED level” pursuant to a Special Access
Program called “SENIOR RODEO.” Hemmingsen
Decl. Ex. A. The principal change made by plaintiff
to the pleadings as they relate to the United States is
in relation to the classification of the JASSM
Antennas.
Plaintiff alleges that the JASSM
Antennas were manufactured as “UNCLASSIFIED
hardware and not subject to the security requirement
which would have applied to the manufacture of
classified hardware . . . [including] Special Access
Program SENIOR RODEO.” FAC. ¶ 17. Plaintiff
further alleges that that neither the Air Force nor any
other government official indicated, prior to their
seizure, that the JASSM Antennas were, or had ever
been, classified. Id. ¶ 18.
III. LEGAL STANDARDS
A motion pursuant to Federal Rule of Civil
Procedure Rule 12(b)(1) motion tests whether the
court has subject matter jurisdiction to hear the
claims alleged in the complaint. Fed. R. Civ. P.
12(b)(1). Such a motion may be “facial” or “factual.”
Safe Air for Everyone v. Meyer. 373 F.3d 1035, 1039
(9th Cir. 2004). That is, a party mounting a Rule
12(b)(1) challenge to the court’s jurisdiction may do so
either on the face of the pleadings or by presenting
extrinsic evidence for the court’s consideration. See
White v. Lee, 227 F.3d 1214, 142 (9th Cir. 2000);

App. 30
Thornhill Publishing Co., v. General Tel.
Electronics. 594 F.2d 730, 733 (9th Cir. 1979).

&

Once a Rule 12(b)(1) motion has been raised the
burden is on the party asserting jurisdiction. Sopcak
v. N. Mountain Helicopter Serv. 52 F.3d 817, 819 (9th
Cir. 1995); Ass’n of Am. Med. Coll. v. United States,
217 F.3d 770, 778-79 (9th Cir. 2000). If jurisdiction is
based on a federal question, the pleader must show
that he has alleged a claim under federal law and that
the claim is not frivolous. See 5B Charles A. Wright
& Arthur R. Miller, Federal Practice and Procedure §
1350 (3d ed). If jurisdiction is based on diversity of
citizenship, the pleader must show real and complete
diversity, and also that his asserted claim exceeds the
requisite jurisdictional amount of $75,000. See id.
When deciding a Rule 12(b)(1) motion the court
construes all factual disputes in favor of the nonmoving party. See Drier v. United States. 106 F.3d
844, 847 (9th Cir. 1996).
IV. DISCUSSION
As an initial matter plaintiff’s opposition was
untimely. Plaintiff offers a convoluted argument for
why the opposition was, in its view, timely. Pursuant
to Local Rule 7-9, the opposition papers should have
been filed no later than March 27, 2017. Plaintiff filed
the instant motion on March 31, 2017. Nonetheless,
because neither party has sought a continuance of the
hearing on this matter and because a motion to
dismiss is better resolved on its merits, the Court will
consider the opposition. Accordingly the United
States’s request to strike the opposition is DENIED.

App. 31
Turning to the merits of the motion, the
allegations against the United States in the FAC have
not been significantly altered from those in the
original complaint.15
The Court will address
plaintiff’s claim in turn.
A. Fraud, Negligent Misrepresentation, and
Conspiracy
to
Commit
Fraud
or
Misrepresentation
One notable exception is that the FAC no longer alleges breach
of an implied contract by the United States. In its original
complaint, plaintiff alleges breach of an implied contract.
Compl. ¶¶ 67-86. The Court dismissed plaintiff’s contract claim.
The FAC no longer includes the allegations underlying plaintiff’s
implied contract claim, nor does it list breach of contract (express
or implied) among plaintiff’s claims.
15

Although plaintiff has removed any such claim from its
pleadings, plaintiff’s opposition to the motion to dismiss includes
an entire section dedicated to “Plaintiff’s [Claim for] Breach of
Contract Implied in Law.” Opp’n at 15. Most of the text in
plaintiff’s opposition regarding plaintiff’s purported breach of
implied contract claim appears to have been copied verbatim
from plaintiff’s opposition to the prior motion to dismiss.
Compare Opp’n at 15 with dkt. 16 at 9.
Insofar as plaintiff did not intend to remove its claim for
breach of implied contract from its pleadings, or might argue
that such a claim is reasonably inferred from the remaining
pleadings, the Court concludes that it lacks subject matter
jurisdiction over any such claim. A district court’s jurisdiction
over contract claims against the United States is limited to
claims that do not exceed $10,000. 28 U.S.C. § 1346(a)(2). In
this case DaVinci seeks $1,250,000 in damages from the taking
of the JASSM antennas. Accordingly the Court lacks subject
matter jurisdiction over DaVinci’s purported breach of contract
claim against the United States.

App. 32
With respect to plaintiff’s claims for fraud and
misrepresentation, there does not appear to be a
reason to reconsider the Court’s prior reasoning. “It
is well settled that the United States is a sovereign,
and as such is immune from suit unless it has
expressly waived such immunity and consented to be
sued.” Gilbert v. DaGrossa. 756 F.2d 1455, 1458 (9th
Cir 1985). “The doctrine of sovereign immunity
applies to federal agencies and federal employees
acting within their official capacities.” Hodge v.
Dalton. 107 F.3d 705, 707 (9th Cir. 1997). “A waiver
of the Federal Government’s sovereign immunity
must be unequivocally expressed in statutory text,
and will not be implied.” Lane v. Pena. 518 U.S. 187,
192 (1996); see also McCarthy v. United States. 850
F.2d 558, 560 (9th Cir. 1988) (“The question whether
the United States has waived its sovereign immunity
against suits for damages is, in the first instance, as
question of subject matter jurisdiction”).
The Federal Tort Claims Act (“FTCA”) waives the
United States sovereign immunity in claims “for
injury or loss of property, or personal injury or death
caused by a negligent or wrongful act or omission of
any employee of the Government while serving within
the scope of his office or employment[.] 28 U.S.C. §
1346(b)(1). However, the FCTA excepts particular
claims
from
this
waiver,
including
“misrepresentation, deceit [and] interference with
contract rights[.] 28 U.S.C. § 2680(h). The Ninth
Circuit has thus concluded that “claims against the
United States for fraud or misrepresentation by a
federal officer are absolutely barred by 28 U.S.C. §
2680(h).” Owyhee Grazing Ass’n. Inc. v. Field. 637

App. 33
F.2d 694, 697 (9th Cir. 1981). “[C]ivil conspiracy is
not an independent cause of action.” Copelan v.
Infinity Ins. Co. 192 F. Supp. 3d 1063 (C.D. Cal.
2016). Accordingly the FCTA equally bars claims for
conspiracy to commit criminal fraud and negligent
misrepresentation against the United States or
federal employees acting in their official capacities.
See e.g. Poole v. McHugh. No. 12-cv-8047-PCT-JAT,
2012 WL 3257654, at *1 (D. Ariz. Aug. 8, 2012)
(concluding that “Plaintiffs claims for fraud and
conspiracy are barred because the United States has
not waived its sovereign immunity”).
The Court therefore concludes that it may not
exercise jurisdiction over DaVinci’s claims for fraud,
misrepresentation
and
conspiracy
involving
misrepresentation. The Court thus GRANTS the
Government’s motion to dismiss DaVinci’s claims for
fraud, misrepresentation and conspiracy involving
misrepresentation and DISMISSES those claims for
lack of jurisdiction.
B. Claim for Conspiracy Related to Abuse of
Process
DaVinci alleges that that “Defendants, and each
of them, conspired to fraudulently and wrongfully
induce and coerce Plaintiff to surrender the 10
JASSM Antennae to the Air Force . . . without due
process and without just compensation.” FAC ¶ 78.
“The two fundamental elements of the tort of abuse of
process [are]: first, an ulterior purpose, and second a
willful act in the use of the process not proper in the
regular course of the proceeding,” Oren Royal Oaks
Venture v. Greenberg, Bernhard, Weiss & Karma,
Inc. 728 P.2d 1202, 1209 (Cal. 1986) (quotation marks

App. 34
omitted). “The tort requires some definitive act or
threat not authorized by the process, or aimed at an
objective not legitimate in the use of the process . . . .
There is, in other words, a form of extortion, and it is
what is done in the course of negotiation, rather than
the issuance or any formal use of the process itself,
which constitutes the tort.” Microsoft Corp. v. ATech
Corp. 855 F. Supp. 308, 311 (C.D. Cal. 1994)
(quotation marks omitted).
The FTCA permits a claim for abuse of process if
an investigative or law enforcement agent committed
the abuse. See 28 U.S.C. § 2680(h). However, the
FCTA is a limited waiver of sovereign immunity,
subject to several exceptions. One such exception is
enshrined in 28 U.S.C. § 2680(c), also known as the
“detention exception.” Section 2680(c) bars any claim
arising from “the detention of goods, merchandise, or
other property by any officer of customs or exercise or
any law enforcement officer.”
However the “detention exception” is subject to its
own exceptions, where the FTCA’s waiver of
immunity still applies, including “the property was
seized for the purpose of forfeiture” pursuant to
federal law. Courts continue to construe Section
2680(c) ‘detention exception’ to the FTCA broadly and
the forfeiture exception to Section 2680(c) narrowly.
See Kosak v. United States. 465 U.S. 848, 856 (1984)
(Section 2680(c) prohibits claims against the United
States “arising out of” the detention of goods –
including the complete loss of the goods): Ali v. Fed.
Bureau of Prisons. 562 U.S. 214, 228 (2008) (Section
2680(c) maintains sovereign immunity for the “entire
universe of claims” against law enforcement “arising

App. 35
out of“ the detention of property: Foster v. United
States. 522 F.3d 1071, 1074 (9th Cir. 2008) (Section
2680(c) prohibits claims arising out of detention
unless “solely for the proposes of forfeiture” (emphasis
added)).
In light of the foregoing, the first jurisdictional
question presented here is whether DaVinci’s claims
arise out of a detention of goods by the Government.
Detention has a broad meaning and is construed
broadly in this context.16
Thus the “detention
exception” to the FTCA encompasses the “entire
universe” of claims arising out of the Government’s
seizure, receipt, and possession of property. Foster.
522 F.3d at 1074; see also Gasho v. United States. 39
F.3d 1420, 1433 (9th Cir, 1994) (claims predicated
upon seizure of unregistered airplanes fell within the
“detention exception”); Shavesteh v. Raty. No. 2:05cv-85-TC, 2009 WL 3837225, at *8 (D. Utah Nov. 16,
2009), aff’d, 404 F. App’x 298 (10th Cir. 2010)
(“Plaintiff’s argument that his property was ‘seized’
rather than ‘detained’ is unavailing”). Insofar as
Detention means a “holding in custody “ and is typically
defined in relation to the verb “detain.” See Merriam-Webster
Online
Dictionary,
www.merriamwebster.com/dictionary/detention (defining detention as “the act
or fact of detaining or holding back; especially a holding in
custody”) (last visited April 20, 2017). The verb form detain, is
similarly defined as holding or keeping something often in
official
custody.
See
Id.
at
www.merriamwebster.com/dictionary/detain (defining detain as “to hold or
keep in as if in custody”) (last visited April 20, 2017). Oxford
English Dictionary Online www.oed.com/view/Entry/51176
(defining detain as “to keep in confinement or under restraint
(last visited April 20, 2017).
16

App. 36
plaintiff’s abuse of process claim arises out of the
Government’s taking possession and custody of
plaintiff’s JASSM Antennas, plaintiff’s claims fall
within the universe of claims arising out of a
detention. Therefore plaintiff’s abuse of process claim
falls within the detention exception to the FTCA.
Having concluded that this claim falls within the
detention exception to the FTCA, the only remaining
jurisdictional question is whether the detention of the
JASSM Antennas was “solely for the purposes of
forfeiture.” Foster. 522 F.3d at 1074, such that the
claims might fall within the narrow exception to the
detention exception. “[T]he text provides only the
slimmest insight into the scope of CAFRA’s re-waiver
of sovereign immunity,” but has been narrowly
construed. Id. at 1077. [T]he possibility that the
government may have had the possibility of a
forfeiture in mind when it seized plaintiff’s property
does not detract from the application of the detention
of goods exception when” there was at least one other
reason for the seizure. Id. at 1075. The re-waiver of
sovereign immunity for property seized solely for
purposes of forfeiture is intended to permit suits
based upon improper use of the forfeiture
proceedings. See Diaz v. United States. 517 F.3d 608,
613 (2d Cir. 2008) (“This ‘re-waiver’ of sovereign
immunity for a narrow category of forfeiture-related
damage claims was a safeguard created by CAFRA in
response to the overly enthusiastic pursuit of civil and
criminal forfeiture.”); Smoke Shop LLC v. United
States. No. 12-C-1186, 2013 WL 5919175, at *2 (E.D.
Wis. Nov. 4 2013); aff’d 761 F.3d 779 (7th Cir. 2014)
(“The government never commenced forfeiture

App. 37
proceedings, so it is implausible to suggest that The
Smoke Shop’s property was seized for the purposes of
forfeiture”).
Here the JASSM Antennas were not seized solely
for the purposes of forfeiture. They were seized
because they contained classified information posing
a danger to national defense.
Plaintiff has
incorporated the Christmas letter into the FAC, in
which Agent Christmas and Captain Lewis
purportedly authorized the seizure of the JASSM
Antennas pursuant to 18 U.S.C. § 793(d). Section
793(d) of the Espionage Act provides:
Whoever lawfully having possession of, access to,
control over, or having entrusted with any . . .
instrument [or] appliance . . . relating to the
national defense . . . willfully retains the same and
fails to deliver it on demand to the officer or
employee of the United States entitled to receive
it . . . [s]hall be fined not more than $10,000 or
imprisoned not more than ten years, or both.
18 U.S.C. § 793(d) (emphasis added). Thus the
Espionage Act permits the Government to demand
and seize property relating to the national defense.
Dubin v. United States. 289 F.2d 651, 654 (Ct. Cl.
1961) (“Dubin I”). As relevant here, where property
related to the national defense, the fact that a party
may have legally obtained the property does not mean
that they have a “right to keep possession of the
property.” Dubin I. 289 F.2d at 654. If it relates to
the national defense, “his keeping it, after its
surrender had been demanded, would [be] a serious
crime.” Id. “The fact that the equipment repossessed
was classified by the proper authority, coupled with

App. 38
the very nature of the equipment itself, leaves no
room for doubt that it was related to the national
defense.” Dubin v. United States. 363 F.2d 938, 942
(Ct. Cl. 1966) (“Dubin II”). The forfeiture re-waiver of
sovereign immunity does not permit suits to permit
the recover the equivalent of contraband – even where
it was only designated as contraband after seizure.
Smoke Shop LLC v. United States. 761 F.3d 779, 785
(7th Cir. 2014) (quotation marks omitted).
The Government has offered into evidence a
declaration of Martin Hemmingsen, the Chief of the
Advanced Experimentation Branch of Special
Programs for the Air Force. Dkt. 17. Hemmingsen
states that he works with the Director of Air Force
Special Programs, who is the Original Classification
Authority for the Special Access Program SENIOR
RODEO. Id. ¶ 2. Hemmingsen states than an
attached memorandum signed by an Assistant
Secretary of the Air Force, Stephen Russell, states
that the JASSM antennas here are classified at the
SECRET level and subject to “Special Access
Program” SENIOR RODEO because they contain
certain “embedded features” whose “disclosure could
provide adversarial nations with critically protected
information.” Id. Ex. A.
Where the materials were seized or detained
because they are classified and related to national
defense, Section 2680(c)’s “detention exception” to the
FTCA appears to govern the District Court’s
jurisdiction. However, plaintiff does not allege or
argue that the JASSM antennas are unrelated to
national defense. Instead plaintiff appears to allege
that no one informed that they were classified and

App. 39
that they were improperly handled by the
Government if they were classified. Plaintiff alleges
that the antennas at issue were only classified as a
“post-hoc effort and misuse of the security and
classification process to avoid legitimate procurement
methods. FAC at 2:24-25. Insofar as plaintiff’s abuse
of process claim might be construed as a challenge to
the classification of the JASSM antennas, the Court
notes that classification does not appear to be a
requisite under 18 U.S.C. § 793(d), which describes
attempts to retain property related to national
defense. Furthermore the Court lacks subject matter
jurisdiction over claims against the United States
predicated upon a challenge to Russell’s exercise of
discretion in classifying the JASSM Antennas. See 28
U.S.C. § 2680(a) (FCTA waiver of sovereign immunity
does not apply to claims “based upon . . . [the
performance or failure to perform] a discretionary
function or duty . . . whether or not the discretion
involved be abused”); Loughlin v. United States. 286
F. Supp. 2d 1, 23 (D.D.C. 2003) (“Striking the
appropriate balance between the competing concerns
of secrecy and safety . . . is the essence of
governmental policy decision-making, and protecting
government officials in carrying out such difficult
choices is the purpose of the discretionary function
exception”).
Notwithstanding the plaintiff’s argument to the
contrary, the fact that the Air Force did not provide
compensation at the time of seizure does not render
this a forfeiture action contemplated under Section
2680(c). As the Christmas letter acknowledged,
plaintiff retains a right to seek compensation for the

App. 40
antennas and they were seized as relating to national
security.
Notably, although there are many
businesses which trade in military surplus goods and
equipment developed by military contractors,
plaintiff does not direct the Court to any analogous
case which has ever proceeded in United States
District Court.
However, many similar claims
against the United States for compensation or the
return of materials seized pursuant to section 793(d)
have been brought before the Court of Federal
Claims. See e.g. Dubin I. 289 F.2d at 652 (plaintiff
sought compensation for the seizure of “transmitterreceiver radar equipment units” purportedly related
to national defense); Dubin II (related to the former);
Ast/Servo Sys. Inc. v. United States. 449 F.2d 789,
798 (Ct. Cl. 1971) (plaintiff sought compensation for
“Guidance Sets of the Atlas Intercontinental Ballistic
Missile”); Int’l Air Response v. United States. 75 Fed.
Cl. 604, 605 (2007) (plaintiff rebutted application of
18 U.S.C. 793(d)’s “national defense” provisions to the
Government’s seizure of validly purchased surplus
military transport planes).
That plaintiff must
pursue reimbursement through a Federal claims
process does not render the seizure here a forfeiture.17
Other than the FTCA, plaintiff does not direct the
Court to a statutory source of subject matter
jurisdiction. Therefore, DaVinci’s claim against the
United States for conspiracy to commit abuse of
process is appropriately DISMISSED.
Although Section 793 has forfeiture provisions, see 18 U.S.C.
793(h), plaintiff does not contend that the JASSM antennas were
seized pursuant to those provisions of the law.
17

App. 41
A. Conversion
Much the same applies to DaVinci’s claim for
conversion. DaVinci contends that its conversion
claim sounds in tort, and that, pursuant to the FTCA,
the United States has consented to jurisdiction claim
against it in district court. However, Section 2680(c)
bars DaVinci’s conversion claim.
The language of Section 2680(c) generally bars
claims for conversion, as here, the claim arises out of
the detention of property. See Ali v. Fed. Bureau of
Prisons. 552 U.S. 214, 228 (2008) (Section 2680(c)
maintains sovereign immunity for the “entire
universe of claims against [any] law enforcement
officers” arising out of the detention of property); Ford
v. United States. 85 F. Supp. 3d 667, 671 (E.D.N.Y.
2015) (collecting cases in which Section 2680(c)
precluded suit for common law conversion.18
DaVinci argues that, in order for Section 2680(c)’s “detention
exception” to apply, the United States would have to have had to
only briefly possess the antennas rather than indefinitely detain
them.
18

As noted above, the definition of “detention” is broad.
Furthermore the Supreme Court has determined that the
“detention exception” precludes suit, even where the property at
issue was permanently lost. Kosak. 465 U.S. at 856; see also
Parrott v. United States. 536 F.3d 629, 636 (7th Cir. 2008) (“a
number of other circuits have held that even where the negligent
actions of law enforcement officers lead to the complete
destruction of the property, § 2680(c) applies to bar the suit”).
“[W]aivers of sovereign immunity must be construed strictly in
favor of the sovereign.” Foster, 552 F.3d at 1074.
Here the Court has already discussed the national security
purpose of the seizure here. Additionally, if the “detention”
exception to the FTCA were limited to claims arising from

App. 42
For the reasons already discussed, it appears that
the seizure of the JASSM Antennas was not for the
purposes of forfeiture, but rather pursuant to Section
793(d) of the Espionage Act. Accordingly this Court
is without jurisdiction to consider DaVinci’s
conversion claim. Plaintiff’s claim for conversion is
hereby DISMISSED.
B. Bivens Claims
The FAC purports to allege two claims against
“All Defendants” under Bivens. In Bivens v. Six
Unknown Named Agents of Federal Bureau of
Narcotics. 403 U.S. 388 (1971) the Court implied a
federal cause of action against federal agents for
unconstitutional conduct. In its opposition, plaintiff
avers that the Court has jurisdiction under Bivens
against the Individual Defendants. Opp’n at 9.
Plaintiff dedicates two pages of its 15-page
memorandum to jurisdiction over Bivens claims with
respect to individual defendants in their individual
capacities. See Opp’n at 9-11. However, Bivens does
not provide a cause of action against the United
States as a party. F.D.I.C. v. Meyer. 510 U.S. 471,
486 (1994), and none of the individual defendants
have joined in the United States’s motion to dismiss.
Absent a waiver of sovereign immunity, the Court
lacks jurisdiction over constitutional claims alleged
temporary detention, it is unclear how a forfeiture exception to
the detention exception would ever apply since forfeiture
ordinarily connotes the permanent loss of property. Insofar as
the JASSM Antennas were seized because they were classified
and related to national security, that purpose is distinct from a
forfeiture and falls within the contours of Section 2680(c).

App. 43
against the United States. Meyer. 510 U.S. at 475.
Plaintiff does not direct the Court to a source of
jurisdiction over plaintiff’s constitutional claims
against the United States. Accordingly plaintiff’s
constitutional claims against the United States are
DISMISSED.
V. CONCLUSION
Defendant’s motion to dismiss is GRANTED.
Plaintiff’s claims against the United States are
DISMISSED.19
“If a defendant is not served within 90 days after
the complaint is filed, the court – on motion or on its
own after notice to plaintiff – must dismiss the action
without prejudice against that defendant or order
that service be made within a specified time.” Fed. R.
Civ. P. 4. This action was filed on August 5, 2016.
Lewis appears to have been served on April 5, 2017,
In plaintiff’s opposition, plaintiff requests that, if the Court
determines that it lacks jurisdiction, the case be transferred to
the Court of Federal Claims. See Opp’n at 16 (citing 28 U.S.C. §
1631 (permitting transfers if it is in the interests of justice and
could have been brought in another court). The Court concludes
here that it lacks jurisdiction over plaintiff’s claims against the
United States.
19

However, the Court declines to assess whether jurisdiction
may lie in the Court of Federal Claims by plaintiff against the
United States. The parties have not fully briefed this issue and
plaintiff maintains other claims here against the individual
defendants. Plaintiff does not explain how any such transfer
would affect its remaining claims against the individual
defendant and the Court of Federal Claims jurisdiction over the
individuals sued here.
Accordingly, plaintiff’s request is
DENIED.

App. 44
dkt. 34, but has not yet responded or appeared in this
matter. The other individual defendants, Christmas
and Russell have not been served. Plaintiff is
ordered to show cause, no later than 14 days from
the date of this order, why this action should not be
dismissed without prejudice, as against Michael
Christmas and Joel Russell.
IT IS SO ORDERED.

